IMPORTANT INFORMATION CONCERNING
RATES AND FEES FOR CREDIT CARDS
You’re worth more (to us).

Interest Rates and Interest Charges
Mastercard Platinum Member Rewards Card
Annual Percentage Rate
(APR) for Purchases and
13.74%* - 15.74%* This APR will vary with the market based on the
APR for Balance Transfers Prime Rate**.
and Cash Advances
Penalty APR and When
it Applies

No penalty APR

How to Avoid
Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you interest on purchases if you pay your entire balance by the
due date each month. We will begin charging interest on cash advances and
balance transfers on the transaction date.

Minimum Interest Charge

No minimum interest charge

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at

https://www.consumerfinance.gov/ask-cfpb/category-credit-cards/

Fees
Annual Fee

None

Transaction Fee
• Foreign Transaction

Up to 1% of each transaction in U.S. dollars.

Penalty Fees
• Late Payment
• Returned Payment

Up to $25
Up to $25

How We Will Calculate Your Balance: We use a method called “average daily balance (including new
purchases).” See the Credit Card Agreement and Disclosure Statement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided
in the Credit Card Agreement and Disclosure Statement.
The information about the costs of the cards described in this application is accurate as of 11/1/2019. This
information may have changed after that date. To find out what may have changed, call 1-800-817-8234 or
write to Fort Worth Community Credit Union at PO Box 210848, Bedford, Texas 76095-7848
* The Variable rate shown here is accurate based on a Prime Rate of 4.75% as of 11/1/2019. We add a margin
of 8.99% - 10.99% to the Prime Rate to determine the Purchase/Balance Transfers/Cash Advances Annual
Percentage Rate of 13.74% - 15.74%. Daily Periodic Rate .037644% - .043123%.
**The Prime Rate used to determine your APR is the Prime Rate published in The Wall Street Journal as of
the last business day of the month.
SECURITY: YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST IN ALL
INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH US NOW AND IN THE FUTURE TO SECURE
REPAYMENT OF CREDIT EXTENSIONS MADE UNDER THIS AGREEMENT. THE GRANTING OF THIS
SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF ANY CARD WHICH YOU MAY USE,
DIRECTLY OR INDIRECTLY, TO OBTAIN EXTENSIONS OF CREDIT UNDER THIS AGREEMENT.
Shares and deposits in an Individual Retirement Account or any other account that would lose special tax treatment
under state or federal law if given as security are not subject to the security interest you are giving.

